              U.S. Department of Energy
              Office of Inspector General
              Office of Inspections and Special Inquiries




Inspection Report

Badge Retrieval and Security Clearance
Termination at Sandia National Laboratory-
New Mexico




DOE/IG-0724                                             April 2006
   •   From a sample of 182 Sandia and subcontractor employees, 16 did not have their
       clearances terminated in a timely manner. Of particular significance, 2 of the 16
       clearances were still active at the time of our fieldwork, even though the employees had
       terminated over 2 years previously. We brought this to the attention of personnel security
       officials, who subsequently ensured termination of the clearances;

   •   From the same sample of 182 employees, 47 did not have complete Security Termination
       Statements, as required. Thus, there was no assurance these individuals had received the
       required Security Termination Briefing at the time of their termination; and

   •   From a sample of 39 Sandia students, 29 did not have their clearances terminated in a
       timely manner even after a 12-month variance to the regular termination procedures had
       lapsed. Further, 2 individuals we originally thought were students, but who turned out to
       be summer faculty employees to whom the variance did not apply, retained their
       clearances for over 27 months after their terminations.

We also found that 2 of the 52 Sandia and subcontractor employees holding Sensitive
Compartmented Information (SCI) access authorizations who terminated between March 1,
2002, and February 28, 2005, retained their SCI access authorizations for approximately 1 year
after their security clearances were terminated. In addition, for the same 52 people, we found
that 22 did not sign an SCI Debriefing Acknowledgement document, so there was no assurance
that, prior to departure, they received the required SCI debriefing.

Further, from an additional sample of terminating Sandia employees, we found that about 40
percent had not completed separation checkout sheets. Consequently, Badge Office and Personnel
Security officials frequently did not receive timely notification that employees were terminating.
This may have contributed to the issues we identified.

In our report, we made several recommendations to Department management to address our
specific findings at Sandia. However, given the similarity of our findings at the three National
Laboratories we reviewed, we believe senior Department management should consider taking
broader action within the Department to ensure that all Department sites are adequately
addressing the areas of badge retrieval and security clearance termination. These areas are
critical to the Department’s program to control access to sensitive and classified information and
facilities.

MANAGEMENT REACTION

In responding to a draft of this report, management agreed with our recommendations and
identified corrective actions to address them. Management’s comments, which are provided in
their entirety in Appendix C of the report, were responsive to our recommendations.

Attachment




                                                2
BADGE RETRIEVAL AND SECURITY CLEARANCE
TERMINATION AT SANDIA NATIONAL LABORATORY-
NEW MEXICO

TABLE OF
CONTENTS

                  OVERVIEW

                  Introduction and Objectives           1

                  Observations and Conclusions          1

                  DETAILS OF FINDINGS

                  Security Badges                       4

                  Security Clearance Terminations       4

                  Security Termination Statements       5

                  Student Variances                     6

                  Subcontractor Debriefings
                    and Security Files                  6

                  Sensitive Compartmented Information   7

                  Out-Processing Procedures             8

                  RECOMMENDATIONS                       9

                  MANAGEMENT COMMENTS                   10

                  INSPECTOR COMMENTS                    10

                  APPENDICES

                  A. Scope and Methodology              11

                  B. Related Reports                    12

                  C. Management Comments                13
Overview

INTRODUCTION       The Department of Energy’s (DOE’s) Sandia National Laboratory-
AND OBJECTIVES     New Mexico (Sandia) is involved in a variety of research and
                   development programs to enhance national security through
                   technology. Sandia develops technologies to sustain, modernize,
                   and protect the nuclear arsenal of the U.S., prevent the spread of
                   weapons of mass destruction, defend against terrorism, protect
                   national infrastructure, ensure stable energy and water supplies,
                   and provide new capabilities to the armed forces. Sandia is
                   administered by the National Nuclear Security Administration
                   (NNSA) and is operated for NNSA by Sandia Corporation, a
                   subsidiary of Lockheed Martin Corporation. Sandia employs
                   about 8,500 people. According to Sandia personnel records, 2,174
                   Sandia employees, including students and consultants, and
                   subcontractor employees with personnel security clearances
                   terminated employment at the Laboratory between March 1, 2002,
                   and February 28, 2005.

                   Office of Inspector General (OIG) reviews at other DOE sites have
                   identified weaknesses in the internal controls designed to ensure
                   that individuals who terminated employment at these sites had
                   their security badges collected at the time of their departure and
                   their security clearances terminated in a timely manner. A list of
                   the associated reports is contained at Appendix B.

                   The objective of this inspection was to determine if Sandia’s internal
                   controls were adequate to ensure that, in accordance with applicable
                   policies and procedures: (1) security badges assigned to terminating
                   Sandia and subcontractor employees were retrieved at the time of
                   their departure; and, (2) security clearances of departing Sandia and
                   subcontractor employees were terminated in a timely manner. To
                   achieve this objective, we conducted sampling from databases
                   related to Sandia and subcontractor employee out-processing, to
                   include badge retrieval and security clearance termination.

OBSERVATIONS AND   We concluded that Sandia’s internal controls were not adequate to
CONCLUSIONS        ensure that, in accordance with applicable policies and procedures,
                   security badges assigned to terminating Sandia and subcontractor
                   employees were retrieved at the time of departure or that security
                   clearances of terminating Sandia and subcontractor employees
                   were terminated in a timely manner. Specifically, we found that:

                   •   Of the 2,174 cleared Sandia and subcontractor employees who
                       terminated employment between March 1, 2002, and



Page 1                                   Badge Retrieval and Security Clearance
                                         Termination at Sandia National
                                         Laboratory-New Mexico
             February 28, 2005, 38 did not turn in their badges. Further, the
             Sandia Personnel Security database listed an additional 20
             badges as reconciled when, in fact, there was no record the
             badges were turned in or destroyed;

         •   From a sample of 182 Sandia and subcontractor employees who
             terminated between March 1, 2002, and February 28, 2005, 16 did
             not have their clearances terminated in a timely manner. (The 16
             employees did not include students, who are addressed separately
             because of a variance granted to the normal termination
             procedures.) Of particular significance, 2 of the 16 clearances
             were still active at the time of our fieldwork, even though the
             employees had terminated over 2 years previously. We brought
             this to the attention of personnel security officials, who
             subsequently ensured termination of the clearances;

         •   From the same sample of 182 Sandia and subcontractor
             employees, 47 did not have complete Security Termination
             Statements as required; and, thus, there was no assurance these
             individuals had received the required Security Termination
             Briefing at the time of their termination. We also found that
             Sandia Personnel Security staff members changed the
             termination dates on Security Termination Statements for 21
             subcontractor employees in the sample and that this may have
             been done to avoid non-compliance with DOE requirements
             resulting from late submission of the forms by subcontractors;

         •   From a sample of 39 Sandia students, 29 did not have their
             clearances terminated in a timely manner after a 12-month
             variance to the regular termination procedures had lapsed.
             Further, 2 individuals we originally thought were students, but
             who turned out to be summer faculty employees to whom the
             variance did not apply, retained their clearances for over 27
             months after their terminations; and

         •   Subcontractor employees performing personnel security duties
             were not conducting adequate security debriefings or retaining
             all required documentation in personnel security files of
             departing employees.

         We also found that 2 of the 52 Sandia and subcontractor
         employees holding SCI access authorizations who terminated
         between March 1, 2002, and February 28, 2005, retained their SCI
         access authorizations for approximately 1 year after their security
         clearances were terminated. In addition, for the same 52 people,



Page 2                                    Observations and Conclusions
         we found that 7 Sandia and 15 subcontractor employees did not
         sign an SCI Debriefing Acknowledgement document, so there was
         no assurance that, prior to departure, they received the required
         SCI debriefing.

         In addition, Sandia Human Resources retains terminating
         employees’ separation checkout sheets for 12 months, so we
         reviewed a judgmental sample of 581 Sandia employees out of the
         1,189 who departed the Laboratory from May 1, 2004, to April 30,
         2005. We found that 230 of the 581 terminated Sandia employees
         did not complete separation checkout sheets. Consequently, Badge
         Office and Personnel Security officials frequently did not receive
         timely notification that employees were terminating. This may have
         contributed to the issues we identified.

         We noted that in November 2004 Sandia revised its internal
         reporting procedures regarding employees terminating from the
         Laboratory. Specifically, Sandia established a process to provide
         daily notification of terminating students to the Personnel Security
         Office and of terminating Sandia employees to the Special Security
         Officer in charge of the SCI program. Based on our inspection, it
         did not appear that the revised reporting procedures corrected all
         the problems in these two areas.




Page 3                                    Observations and Conclusions
Details of Findings

SECURITY              We found that of the 2,174 cleared Sandia and subcontractor
BADGES                employees who terminated employment between March 1, 2002,
                      and February 28, 2005, 38 did not turn in their badges. Further, we
                      identified that the Sandia Personnel Security database listed an
                      additional 20 badges as reconciled when, in fact, there was no
                      record the badges were turned in or destroyed. DOE Manual
                      473.1-1, “Physical Protection Program Manual,” stated that badges
                      issued must be recovered at the final security checkpoint or earlier
                      when an individual no longer has a valid requirement for access to
                      a DOE facility.

                      During our fieldwork, we were told that access to Sandia facilities
                      was controlled through electronic means. However, under certain
                      circumstances, access to Sandia facilities could still be gained with
                      a Sandia badge while avoiding electronic access controls. In
                      addition, Sandia badges allow access to other DOE facilities.
                      Therefore, a terminated employee who had retained his/her badge
                      could potentially access certain Laboratory facilities, as well as
                      other DOE sites, but there was no practical way for the OIG to
                      readily determine if such access had, in fact, occurred.

SECURITY              We found that from a sample of 182 Sandia and subcontractor
CLEARANCE             employees who terminated between March 1, 2002, and
TERMINATIONS          February 28, 2005, 16 did not have their clearances terminated in a
                      timely manner. (The 16 employees did not include students, who
                      are addressed in a separate section because of a variance granted to
                      the normal termination procedures.)

                      DOE Manual 472.1-1B, “Personnel Security Program Manual,”
                      stated that, “Within 2 working days of receipt of a DOE F 5631.29
                      [Security Termination Statement] or written notice [of termination],
                      the cognizant DOE security office must note in the individual’s PSF
                      [Personnel Security File] the date the access authorization was
                      actually terminated and must enter the appropriate information to the
                      CPCI [Central Personnel Clearance Index].” The CPCI is the
                      Department’s official personnel security clearance database.

                      We sampled 69 cleared Sandia employees who departed the
                      Laboratory and determined that 11, which included one consultant,
                      retained their clearances in the CPCI from 11 days to more than 2
                      years after their departure. Of particular significance, two of these
                      clearances were still active at the time of our fieldwork, even though
                      the employees had terminated over two years previously. We
                      brought this to the attention of personnel security officials, who
                      subsequently ensured termination of the clearances.



Page 4                                                              Details of Findings
              In addition, we sampled 113 cleared Sandia subcontractor
              employees who departed their subcontractor organizations during
              the period March 1, 2002, to February 28, 2005. Of the 113
              subcontractor employees, we found that 5 security clearances
              remained active from more than 10 days to 10 months after the
              employees’ departures.

SECURITY      We found that from the same sample of 182 Sandia and
TERMINATION   subcontractor employees, 47 did not have complete Security
STATEMENTS    Termination Statements as required; and, thus, there was no
              assurance these individuals had received the required Security
              Termination Briefing at the time of their termination. DOE
              Manual 470.1-1, “Safeguards and Security Awareness Program,”
              states that a Security Termination Briefing is required whenever
              access authorization has been or will be terminated. Security
              Termination Briefings are used to impress upon the individual his
              or her continuing responsibility not to disclose classified
              information. This briefing also addresses the individual’s
              obligation, prior to departure, to return to appropriate DOE
              officials all classified documents and materials in the individual’s
              possession.

              To document the Security Termination Briefing, the terminating
              employee and the Line Manager who conducted the briefing sign
              DOE Form (F) 5631.29, Security Termination Statement. This
              form is then used by Sandia to provide the required notification to
              the cognizant DOE Personnel Security Office of the termination of
              an employee. Based on this form, the DOE Personnel Security
              Office terminates the employee’s security clearance/access
              authorization in DOE’s CPCI system.

              We also found that Sandia Personnel Security staff members
              changed the termination dates on Security Termination Statements
              for 21 subcontractor employees in the sample and that this may
              have been done to avoid non-compliance with DOE requirements
              resulting from late submission of the forms by subcontractors.
              DOE Order 472.1C, “Personnel Security Activities,” Attachment
              2, CONTRACTOR REQUIREMENTS DOCUMENT, states that
              verbal notification within 2 working days followed by written
              confirmation within the next 10 working days shall be provided
              through established channels to the cognizant DOE office when the
              contractor restricts or withdraws an employee’s access to classified
              matter without DOE direction.




Page 5                                                      Details of Findings
                  During our fieldwork, we were told by a Sandia staff member that
                  they changed the termination dates on the forms in order to make
                  Sandia’s notification of subcontractor employee terminations to the
                  cognizant DOE office appear more timely. In comments on a draft
                  of this report, Sandia told us that Sandia staff members were
                  actually changing the dates in response to a process improvement
                  recommendation by Pacific Northwest National Laboratories. We
                  noted that the Security Termination Statement clearly specifies that
                  the “Date of Termination” is to be provided; therefore, we believe
                  it is inappropriate and potentially misleading to provide any date
                  except the employee’s termination date.

STUDENT           We found that from a sample of 39 students, 29 did not have their
VARIANCES         clearances terminated in a timely manner after a 12-month
                  variance to the regular termination procedures had lapsed. The
                  Director of the NNSA Service Center signed a memorandum,
                  subject: “Sandia National Laboratories (SNL) Variance Request
                  OSS-SNL-04-001, Retaining Student Employee Clearances,” that
                  approved a Sandia request for a variance to DOE policy on student
                  clearances. This variance authorized retention of a student intern’s
                  security clearance for up to 12 months after his/her official
                  departure date. We selected a judgmental sample of 116
                  employees and established that 39 of them were students. We
                  reviewed the clearance status of the 39 students and determined
                  that 29 of their security clearances remained active from more than
                  10 days to 14 months after the end of the approved 12-month
                  variance. In addition, we noted that, contrary to Sandia policy, 1
                  student retained his badge during the entire 12-month variance
                  period. Further, 2 individuals we originally thought were students,
                  but who turned out to be summer faculty employees to whom the
                  variance did not apply, retained their clearances for over 27
                  months after their terminations.

SUBCONTRACTOR     We found that subcontractor employees performing personnel
DEBRIEFINGS AND   security duties were not conducting adequate security debriefings
SECURITY FILES    or retaining all required documentation in personnel security files
                  of departing employees. We determined that subcontractor
                  employees performing personnel security duties were not
                  knowledgeable of all DOE requirements for the conduct of security
                  debriefings and the retention of personnel security files.

                  DOE Manual 470.1-1 requires that termination briefings include
                  the information contained in items 1 through 6 of the Security
                  Termination Statement (DOE F 5631.29) and items 3, 4, 5, 7, and
                  8 of the Classified Information Nondisclosure Agreement that



Page 6                                                         Details of Findings
                individuals sign when they are granted a clearance. In addition,
                the Manual requires that the termination briefing include penalties
                for unauthorized disclosure of classified information and
                Unclassified Controlled Nuclear Information as specified in the
                U.S. Code.

                Through interviews and documentation reviews, we determined
                that subcontractor employees performing personnel security duties
                were only addressing items 1 through 6 of the Security
                Termination Statement, which include destruction/return of
                classified materials, agreement not to disclose classified
                information, agreement to report to appropriate authorities any
                attempts by an unauthorized individual to obtain classified
                information, and acknowledgement of penalties associated with
                unauthorized disclosure of classified information. Subcontractor
                employees were not aware of the other required elements of
                termination briefings, to include the effect of disclosure of
                classified information, restrictions associated with publication of
                classified information, and acknowledgement that classified
                information is the property of the U.S. Government.

                In addition, subcontractor employees were not aware of the records
                maintenance requirements for the retention of personnel security
                files. DOE Order 472.1C states that contractors shall maintain
                current records that reflect by contract number all employees granted
                access authorizations and copies of correspondence to and from the
                cognizant DOE office(s) that reflect access authorization matters for
                each applicant and employee. These records include the request for
                access authorization, notification that access authorization action
                was effected, and access authorization termination actions.
                However, subcontractor administrative employees were not
                maintaining the required records, apparently due to their lack of
                knowledge concerning DOE personnel security requirements.

SENSITIVE       We found that 2 of the 52 Sandia and subcontractor employees
COMPARTMENTED   holding SCI access authorizations who terminated between
INFORMATION     March 1, 2002, and February 28, 2005, retained their SCI access
                authorizations for approximately 1 year after their security
                clearances were terminated. In addition, for the same 52 people, we
                found that 7 Sandia and 15 subcontractor employees did not sign an
                SCI Debriefing Acknowledgement document, so there was no
                assurance that, prior to departure, they received the required SCI
                debriefing. These individuals’ Debriefing Acknowledgement
                documents were annotated with the words “Unavailable to Sign.”
                This practice is commonly referred to as “administrative debriefing.”



Page 7                                                       Details of Findings
                 Sandia’s “5900 Systems Assessment and Research Center
                 Sensitive Compartmented Information Briefing/Debriefing
                 Procedures” provides guidance on the Sandia SCI process. The
                 SCI debriefing procedures state: “Give each participant a
                 debriefing sheet to read. . . . Also have them sign the Security
                 Debriefing Acknowledgement . . . .” The SCI debriefing
                 procedures also state: “At this time, show them their original
                 briefing form(s), . . . have them sign in the debrief box, witness
                 their signature, and verify their SS [Social Security] number.”

                 We were told by an official in DOE’s Office of Intelligence (IN)
                 that a 1995 memorandum from the then IN Director only
                 authorized a deviation from the debriefing requirements when an
                 individual refused to sign the debriefing document. The IN official
                 also said that, aside from this specific situation, no other written IN
                 policy exists authorizing an administrative debriefing of an
                 individual with SCI access. We obtained a copy of the 1995
                 memorandum and determined it states that “When an individual
                 refuses to participate in a formal debriefing an administrative
                 debriefing is permissible.”

                 We found no evidence that any of the 22 departing employees who
                 were administratively debriefed refused to participate in a formal
                 debriefing or sign the debriefing form. In discussing this matter
                 with Sandia, we were told that several of the employees were
                 debriefed by telephone and that the Debriefing Acknowledgement
                 was subsequently annotated with the words “Unavailable to Sign.”
                 We noted that the Sandia SCI debriefing procedures made no
                 provision for telephonic debriefings.

                 We believe that, given the significance of the SCI program and the
                 stringent security policies and procedures applicable to
                 safeguarding SCI information, administrative debriefings should
                 be rare. At Sandia, however, this practice appears to be routine.
                 We believe that Sandia should discontinue administrative
                 debriefings except in the instance specified under DOE policy.

OUT-PROCESSING   Sandia Human Resources retains terminating employees’
PROCEDURES       separation checkout sheets for 12 months, so we reviewed a
                 judgmental sample of 581 Sandia employees out of the 1,189 who
                 departed the Laboratory from May 1, 2004, to April 30, 2005. We
                 found that 230 of the 581 terminated Sandia employees did not
                 complete separation checkout sheets.




Page 8                                                          Details of Findings
                  Sandia’s “Separation Process & Procedures,” which is maintained
                  on its internal web site, requires all terminating Sandia employees
                  to complete a “SEPARATION CHECKOUT SHEET – For All
                  Personnel Separating from Sandia.” This checkout sheet is
                  intended to ensure, among other things, that an employee’s badge
                  and Security Termination Statement are collected at the time of
                  departure. (Subcontractor employees are out-processed by their
                  organization.) Because the checkout sheets were not always
                  completed by terminating Sandia employees, Badge Office and
                  Personnel Security officials frequently did not receive timely
                  notification that employees were terminating. This may have
                  contributed to the issues we identified.

RECOMMENDATIONS   We recommend that the Director, IN, ensures that:

                  1. Terminating employees who held SCI access authorizations are
                     debriefed and sign the Debriefing Acknowledgement, and that
                     the use of administrative debriefings is limited to the
                     circumstances described in DOE policy.

                  We recommend that the Manager, Sandia Site Office, ensures that:

                  2. In accordance with DOE policy, Sandia recovers badges of
                     terminating Sandia and subcontractors employees; conducts
                     Security Termination Briefings; completes Security
                     Termination Statements; and makes timely notification to DOE
                     when security clearances and access authorizations should be
                     terminated.

                  3. Sandia reviews the facts and circumstances with respect to
                     employees changing the termination dates on subcontractor
                     employee Security Termination Statements and takes
                     appropriate follow-up action, to include disciplinary action if
                     warranted.

                  4. Sandia does not exceed the 12-month variance for terminating
                     student clearances.

                  5. Sandia and subcontractor employee SCI access authorizations
                     are terminated in a timely manner.

                  6. Sandia subcontractor employees performing personnel security
                     duties include all required information in security clearance
                     debriefings.




Page 9                                                         Recommendations
             7. Sandia subcontractors maintain personnel security files in
                accordance with DOE policy, to include records relating to
                access authorizations and terminations.

             8. Sandia takes action to ensure that terminating employees
                follow the applicable out-processing procedures.

MANAGEMENT   In comments on our draft report, IN agreed with recommendation 1
COMMENTS     and stated that IN will issue clarifying policy regarding the use of
             administrative debriefings for individuals who have had access to
             SCI information.

             In comments on our draft report, NNSA agreed with
             recommendations 2 through 8 and stated that “since the inspection,
             internal controls have either been strengthened or developed to
             ensure that the issues that are raised in this report do not occur.”
             NNSA agreed to take the corrective actions recommended and
             noted that a number of corrective actions are nearing completion.
             In addition, under separate cover, NNSA provided technical data
             regarding the report and corrective actions that have been
             implemented.

INSPECTOR    We found management’s comments to be responsive to our report.
COMMENTS     In addition, we reviewed the technical data provided by
             management and discussed specifics with Sandia, and the report
             was revised as appropriate.




Page 10                              Management and Inspector Comments
Appendix A

SCOPE AND     We conducted the majority of our inspection fieldwork between
METHODOLOGY   March and May 2005. We interviewed Laboratory and
              subcontractor officials regarding Sandia out-processing, badge
              termination and retrieval, and clearance termination procedures.
              We reviewed DOE and Sandia policies, procedures, and records
              regarding employee terminations, security clearance and access
              authorization terminations, and badge turn-in procedures. We also
              interviewed DOE officials regarding security clearance and access
              authorization terminations. Documents of primary interest were:

                   •   DOE Manual 470.1-1, “Safeguards and Security
                       Awareness Program.”

                   •   DOE Order 472.1C, “Personnel Security Activities.”

                   •   DOE Manual 472.1-1B, “Personnel Security Program
                       Manual.”

                   •   DOE Manual 473.1-1, “Physical Protection Program
                       Manual.”

              This inspection was conducted in accordance with the “Quality
              Standards for Inspections” issued by the President’s Council on
              Integrity and Efficiency.




Page 11                                               Scope and Methodology
Appendix B

RELATED REPORTS              The following OIG reports involve work similar to this inspection:

                                  •   “Personnel Security Clearances and Badge Access
                                      Controls at Department Headquarters” (DOE/IG-0548,
                                      March 2002);

                                  •   “Personnel Security Clearances and Badge Access
                                      Controls at Selected Field Locations” (DOE/IG-0582,
                                      January 2003);

                                  •   “Security and Other Issues Related to Out-Processing of
                                      Employees at Los Alamos National Laboratory”
                                      (DOE/IG-0677, February 2005); and

                                  •   “Security Clearance Terminations and Badge Retrieval at
                                      Lawrence Livermore National Laboratory” (DOE/IG-
                                      0716, January 2006).




_____________________________________________________________________________________________

Page 12                                                                    Related Reports
Appendix C




Page 13      Management Comments
Appendix C          (continued)




Page 14      Management Comments
Appendix C         (continued)




Page 15      Management Comments
                                                                    IG Report No. DOE/IG-0724

                        CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message clearer to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name _____________________________            Date ___________________________________

Telephone _________________________           Organization ____________________________


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

    If you wish to discuss this report or your comments with a staff member of the Office of
           Inspector General, please contact Judy Garland-Smith at (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
